      Department of Homeland Security




            FEMA’s Process for Tracking Public 

            Assistance Insurance Requirements 





OIG-12-18                                          December 2011

                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                DEC 1 6 2011
                                          Preface

The Department of Romeland Security (DRS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibiUties to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency's process for tracking public assistance insurance requirements. It
is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                   J;:;t!r-
                                      Acting Assistant Inspector General
                                      Office of Emergency Management Oversight
Table of Contents/Abbreviations
Executive Summary.............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................5


     Compliance With Insurance Requirements ...................................................................5

     Recommendation ...........................................................................................................6

     Management Comments and OIG Analysis ..................................................................7


     Tracking Insurance Requirements in FEMA Databases................................................7

     Recommendations........................................................................................................10

     Management Comments and OIG Analysis ................................................................11


     Insurance Guidance......................................................................................................11

     Recommendations........................................................................................................13

     Management Comments and OIG Analysis ................................................................14


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................15

     Appendix B:           Management Comments to the Draft Report .......................................16

     Appendix C:           Previous Inspector General Reports on Public Assistance Insurance..20

     Appendix D:           Major Contributors to this Report........................................................21

     Appendix E:           Report Distribution ..............................................................................22


Abbreviations
     ADAMS                       Automated Disaster Assistance Management System

     CFR                         Code of Federal Regulations

     DHS                         Department of Homeland Security

     EDW                         Enterprise Data Warehouse

     EMMIE                       Emergency Management Mission Integrated Environment

     FEMA                        Federal Emergency Management Agency

     FY                          fiscal year

     GPS                         global positioning system

     NEMIS                       National Emergency Management Information System

     OIG                         Office of Inspector General

     PA                          Public Assistance

     PNP                         private nonprofit

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  The Federal Emergency Management Agency’s (FEMA) Public
                  Assistance Grant Program provides assistance to state, tribal, and
                  local governments and certain types of private nonprofit
                  organizations so that communities can quickly respond to and
                  recover from major disasters or emergencies. As a condition of
                  receiving federal disaster assistance, Public Assistance applicants
                  are required to obtain and maintain insurance in order to protect
                  facilities against future loss to property from the types of hazard
                  that caused the damages. Some recipients do not comply with this
                  requirement. Improvements can be made in the monitoring and
                  oversight activities of states and FEMA to ensure that recipients
                  satisfy this requirement and do not receive financial aid for
                  damages that are, or should be, covered by insurance.

                  Even though the Robert T. Stafford Disaster Relief and Emergency
                  Assistance Act, as amended, encourages states and local
                  governments to obtain insurance to supplement or replace
                  government assistance, FEMA’s program provides a disincentive
                  to carry insurance and is silent on a number of important policy
                  issues. FEMA has been aware of these issues for more than 10
                  years; however, progress in addressing these issues has been slow.

                  Improvements can be made to the automated systems that FEMA
                  uses to manage grant programs in order to provide a reliable
                  method of monitoring insurance requirements and to easily
                  determine if a current applicant received financial assistance in a
                  previous disaster. Without a reliable system to track insurance
                  information, the federal government is at risk of providing
                  duplicate assistance.

                  We are making six recommendations to improve FEMA’s
                  management and oversight of public assistance insurance
                  requirements.




           FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                         Page 1
Background
                         Under the authority of the Robert T. Stafford Disaster Relief and
                         Emergency Assistance Act, as amended (Stafford Act), 42 U.S.C.
                         5121, et seq., and implementing regulations, FEMA provides aid to
                         states and communities to recover from presidentially declared
                         disasters as quickly as possible. 1 As a condition of receiving
                         federal disaster assistance to repair property damaged by the same
                         type of hazard that previously damaged the property during a
                         major disaster, applicants must protect facilities by obtaining and
                         maintaining insurance. Insurance reviews are conducted during
                         the project approval process to ensure that applicants have satisfied
                         any insurance requirements that may have existed as a result of
                         receiving financial aid for damages in a prior disaster. Applicants
                         agree to maintain insurance for the life of the facility and must
                         provide evidence that they have obtained sufficient insurance to
                         satisfy the grant requirements and the law.

                         The Public Assistance Program

                         FEMA provides federal disaster grant assistance to state, tribal,
                         and local governments and certain private nonprofit (PNP)
                         organizations through the Public Assistance (PA) program. Two
                         types of work are eligible for reimbursement through a PA grant:
                         emergency work and permanent work. These types are further
                         divided into categories based on the activity being performed for
                         emergency work, or the type of facility repaired for permanent
                         work. Table 1 summarizes the categories.

                         Table 1. Categories of Disaster-Related Work
                              Type of Work                      Categories
                          Emergency Work          A Debris removal
                                                   B Emergency protective measures
                          Permanent Work           C Road systems and bridges
                                                  D Water control facilities
                                                   E Buildings, contents, and equipment
                                                   F Utilities
                                                  G Parks, recreational, and other

                         FEMA managed more than 197,000 PA grant projects, totaling
                         more than $10 billion, for all disasters declared between 2007 and
                         2010. This report focuses on Category E work, which includes

1
 Implementing regulations concerning FEMA and the Stafford Act are in the Code of Federal Regulations
(C.F.R.) Title 44, Part 206.


                 FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                                Page 2
                            facilities owned by state, tribal, and local governments, as well as
                            PNP organizations. More than 22,000 Category E projects totaling
                            more than $1.3 billion associated with disasters were declared
                            between 2007 and 2010.

                            The PA program is administered through a coordinated effort
                            among FEMA, its grantees, and subgrantees, each with different
                            responsibilities. In most cases, states are the grantees that manage
                            and distribute grant funds, whereas tribal and local governments
                            and eligible PNP organizations are the subgrantees that receive the
                            funds.

                            The Insurance Purchase Requirement

                            Federal legislation and regulations encourage states and local
                            governments to obtain insurance to supplement or replace federal
                            assistance, and require that an applicant seeking a PA grant to
                            repair damage to a facility commit to obtain and maintain
                            insurance to protect against future damage, in the amount of the
                            eligible damage that was incurred as a result of the disaster. 2
                            Applicants that fail to obtain and maintain insurance are not
                            eligible to receive disaster assistance.

                            The Stafford Act and its implementing regulations provide more
                            direction with respect to insurance requirements:

                                 1.	 Disaster assistance provided by FEMA is intended to
                                     supplement financial assistance from other sources.
                                     Disaster assistance will not be provided for damage or
                                     losses covered by insurance. Insurance coverage must be
                                     subtracted from all applicable PA grants in order to avoid
                                     duplication of financial assistance. If PA funds are
                                     obligated for work that is subsequently determined to be
                                     covered by insurance, FEMA must deobligate the funds.

                                 2.	 The applicant must obtain insurance on damaged insurable
                                     facilities (buildings, equipment, contents, and vehicles) as a
                                     condition of receiving PA grant funding. In addition, the
                                     applicant must maintain insurance on those facilities to be
                                     eligible for PA funding in future disasters.




2
    The Stafford Act, as amended, 42 U.S.C. §§ 5121(b)(4), 5154(b), and 44 C.F.R. § 206.253.


                    FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                                   Page 3
       Furthermore, FEMA program guidance requires that—

            •	 Applicants or subgrantees comply with federal laws,
               regulations, and policies and complete projects in
               accordance with the approved scope of work. Applicants
               are responsible for identifying all damages and any
               insurance that was in place, and providing all pertinent
               insurance information to the State Public Assistance
               Officer.

            •	 States monitor the process to ensure that applicants comply
               with program requirements and complete work within
               regulatory timeframes. States are responsible for notifying
               FEMA of any insurance proceeds and settlements for
               damaged facilities, and for ensuring that subgrantees have
               obtained and maintained insurance on facilities that
               received PA funding.

            •	 FEMA ensures that applicants that previously received
               disaster assistance have obtained and maintained insurance,
               and reduces the PA grants when damages are covered by
               insurance. FEMA’s program managers are responsible for
               monitoring progress to ensure that work is completed
               within regulatory timeframes and in accordance with the
               Stafford Act, federal regulations, and all related policies.




FEMA’s Process for Tracking Public Assistance Insurance Requirements

                              Page 4
Results of Review

        In January 2001, the FEMA OIG issued a report 3 that identified concerns with
        applicant compliance with insurance requirements, insurance reviews, and FEMA
        and state monitoring of insurance requirements, among other issues. More than
        10 years later, concerns remain, particularly in the following areas:

            •	 Compliance with insurance requirements;
            •	 Tracking insurance requirements in FEMA databases; and
            •	 Insurance guidance.

        Compliance With Insurance Requirements
                Since fiscal year (FY) 2009, we have issued 19 financial assistance grant
                reports (see appendix C for complete list) that have included findings
                pertaining to PA insurance requirements, and brought the following
                conditions to FEMA’s attention:

                    •	 Ten reports identified situations categorized as “duplicate
                       benefits,” where subgrantees received federal financial assistance
                       and received insurance proceeds for the same damages or where
                       damages paid with federal financial aid should have been covered
                       by insurance.

                    •	 Six reports identified situations categorized as “incomplete
                       insurance review,” where the final insurance settlement had not
                       been reconciled against the funded project costs.

                    •	 Three reports identified situations in which the applicant either did
                       not obtain adequate insurance or did not file an insurance claim.

                Although these reports were issued in FYs 2009–2011, they addressed
                financial assistance grant awards for disasters that were declared between
                2003 and 2005. Projects routinely stay open for years before insurance
                verification or final grant reconciliation occurs. In fact, the above 19 audit
                reports were issued, on average, 60 months after the disaster declaration,
                even though regulations implementing the Stafford Act call for large
                projects to be completed within 18 months, unless extenuating
                circumstances or unusual project conditions exist.

                States are responsible for ensuring that applicants comply with the
                program’s insurance requirements. Furthermore, states are required to

3
 Compliance with Public Assistance Program’s Insurance Purchase Requirements (I-01-01), January
2001.


                 FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                               Page 5
                submit quarterly reports as part of their grants management
                responsibilities. 4 However, FEMA officials said that the quarterly reports
                focus primarily on project costs and not on compliance or insurance
                issues.

                State and local governments are often overwhelmed following a major
                disaster, and management activities are further hampered by personnel
                shortages. Nevertheless, five years is more than ample time for applicants
                to comply with the insurance requirements of the Stafford Act, and for the
                state and FEMA to monitor and oversee projects.

                Leaving open insurance matters unresolved has additional financial
                implications. Delaying the closeout of PA grants and disasters results in
                additional administrative costs to FEMA, and any unliquidated obligation
                balances are not available for other uses. 5

                Conclusion
                The findings reported in the 19 OIG reports demonstrate the need for
                improved monitoring by the state and increased oversight by FEMA.
                Unresolved and uncompleted insurance reviews increase the likelihood of
                FEMA providing unnecessary or even duplicate assistance. This, in turn,
                results in inefficiencies in the use of government funds and lost
                opportunities to use unliquidated obligations more effectively. More
                consistent and timely monitoring and oversight can reduce these risks.

                Recommendation
                        We recommend that the Associate Administrator, Response and
                        Recovery:

                        Recommendation #1: Work with FEMA regional personnel to
                        evaluate the process of insurance reviews to determine how to
                        complete these reviews earlier in the project formulation process.




4
  SOP9570.14, FEMA Program Management and Grant Closeout Standard Operating Procedure, Paragraph
5.2 – Grantee Responsibilities.

5
  Opportunities to Improve FEMA’s Disaster Closeout Process (OIG-10-49), January 2010.



                FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                              Page 6
                 Management Comments and OIG Analysis

                         In summary, FEMA concurred with Recommendation 1, and stated
                         that it is currently coordinating with the regional offices in
                         conducting a revised insurance review procedure that is designed
                         to streamline the process. We will determine the status of this
                         recommendation once we receive the detailed corrective action
                         plan in FEMA’s 90-day letter.


        Tracking Insurance Requirements in FEMA Databases
                 PA grant recipients are required to protect facilities from future damages
                 by obtaining and maintaining insurance as a condition of receiving federal
                 assistance for damages caused by the same type of hazard. One of the
                 objectives of this review was to determine whether facilities that were
                 required to maintain insurance received assistance a second time without
                 meeting the insurance requirement. FEMA officials acknowledged that
                 such duplicate benefits may have been awarded, but they could not cite a
                 specific instance because they do not have the tools and resources to
                 identify these conditions.

                 During the project approval process, one of FEMA’s roles is to conduct
                 insurance reviews to determine if the grant applicant previously received
                 assistance for the damaged facility. To review historical assistance
                 information, it is often necessary to query three databases that span several
                 decades. The earliest is the Automated Disaster Assistance Management
                 System (ADAMS), followed by the National Emergency Management
                 Information System (NEMIS) and the Emergency Management Mission
                 Integrated Environment (EMMIE 6). The systems do not reliably indicate
                 whether FEMA provided assistance to repair or replace a specific facility
                 in a prior disaster. Moreover, FEMA does not have a tool to
                 simultaneously compare fields in ADAMS with either NEMIS or EMMIE,
                 and there is no reliable way to search based on facility location or name
                 across NEMIS and EMMIE. Figure 1 summarizes the process of
                 validating insurance considerations during project formulation.




6
 FEMA began the EMMIE pilot on select disasters between December 18, 2007, and July 14, 2008, and
used it for all disasters starting with disaster declaration number 1778, declared on July 24, 2008.


                 FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                                Page 7
Figure 1: Validating insurance considerations (Source: OIG analysis of
FEMA data)

FEMA established the Enterprise Data Warehouse (EDW) to enable it to
simultaneously query fields within both NEMIS and EMMIE. However,
data reliability and functionality issues significantly hamper the usefulness
of these queries. The most reliable way to determine if FEMA has
provided disaster assistance for a damaged facility is by matching global
positioning system (GPS) coordinates. FEMA has increased the use of
GPS coordinates to identify a facility’s location—more than 90% of the
facilities receiving disaster assistance after October 1, 2006, are identified

FEMA’s Process for Tracking Public Assistance Insurance Requirements


                               Page 8

                by GPS coordinates—but the majority of the facilities receiving disaster
                assistance before that date were not identified by GPS coordinates.

                Another alternative is to match the fields containing descriptive
                information on the damaged facility’s physical location. EMMIE contains
                three sets of fields that identify the physical location—the Project
                Location field, the Location field, and the Facility Name, Address, City,
                and ZIP fields. Of the 19,312 specific locations in EMMIE, 12,285 (64%)
                do not contain any information in the Address field. We randomly
                sampled 250 specific location records to determine if there was enough
                information in any of the three location fields to establish where the
                damaged facility was located. Of these, 26% did not contain enough
                information to determine the location of a damaged facility. Fields were
                either blank or contained generic information such as “District Wide” or
                “See site sheets.” Without specific and searchable location information, it
                is difficult to use the information in EMMIE to identify instances of
                duplicate benefits.

                Furthermore, some insurance information cannot be easily retrieved
                because it is entered incorrectly into the database. For example, insurance
                information was sometimes found in “general comments” rather than in
                the designated insurance fields. Such incorrect entries make it difficult to
                review details efficiently and accurately. Similarly, insurance cost
                information was not always coded correctly. Instead of using insurance
                cost codes, insurance costs were sometimes entered in the databases with a
                generic code. In fact, FEMA Regions rely on stand-alone internally
                developed spreadsheets to overcome some of these deficiencies.

                A recent OIG audit 7 reviewed FEMA’s efforts to provide the information
                systems needed to support its disaster response mission operations. The
                report concluded that FEMA’s existing technology systems do not support
                disaster response activities effectively: The systems are not integrated, do
                not meet user requirements, and do not provide the information
                technology capabilities that agency personnel and external partners need
                to carry out disaster response and recovery operations in a timely or
                effective manner. Although FEMA is evaluating plans for upgrading and
                replacing NEMIS and EMMIE, concrete plans have not been announced.




7
 Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology
(OIG-11-69), April 2011.


                FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                              Page 9
Conclusion
The current system has data reliability, functionality, and data integration
problems that hamper the management and verification of insurance data.
Without a reliable system to track insurance information, FEMA is at risk
of providing duplicate assistance in violation of the Stafford Act.

Recommendations
       We recommend that the Associate Administrator, Response and
       Recovery:

       Recommendation #2: Implement a quality control process to
       ensure that all pertinent insurance information, including insurance
       and location data, is entered into the correct fields and in the
       correct format.

       Recommendation #3: Modify EMMIE or EDW so that FEMA
       can use the data stored in EMMIE to determine if an applicant
       previously received disaster assistance for a damaged facility.

Management Comments and OIG Analysis
       In summary, FEMA concurred with Recommendation 2, and stated
       that it currently implements quality control procedures in two
       stages: (1) during the Project Worksheet review at the Joint Field
       Office, and (2) during project close-out at the Regional office.

       FEMA concurred with Recommendation 3, and stated that it is
       working on improving its capability to access needed information
       through a plan to migrate data from NEMIS into EMMIE. The
       date of migration is dependent on funding availability. We will
       determine the status of these recommendations once we receive the
       detailed corrective action plan in FEMA’s 90-day letter.

Recommendation
       We recommend that the Associate Administrator, Response and
       Recovery:

       Recommendation #4: Review and evaluate NEMIS and EMMIE
       data fields and update any location and insurance fields that are
       blank or contain erroneous information.




FEMA’s Process for Tracking Public Assistance Insurance Requirements

                              Page 10
     Management Comments and OIG Analysis

            FEMA partially concurred with Recommendation 4 as it pertains
            to updating location and insurance fields as they become known in
            the process going forward in future disasters. FEMA stated that it
            would be infeasible in cost and labor to update the database
            retroactively.

            We encourage FEMA to provide information comparing the cost
            of the recommended corrective action to estimated improper
            payments. Absent evidence that the cost to update NEMIS and
            EMMIE location and insurance data fields with accurate and
            complete information exceeds the improper payments that would
            be avoided, we continue to believe that updating NEMIS and
            EMMIE with complete and accurate information is in the best
            interest of the taxpayer.

            We will determine the status of this recommendation once we
            receive the detailed corrective action plan in FEMA’s 90-day
            letter.


Insurance Guidance
     The Stafford Act encourages individuals, states, and local governments to
     protect themselves by obtaining insurance coverage to supplement or
     replace government assistance, and requires applicants to obtain and
     maintain insurance to protect against future loss of the same type and
     extent as a condition of receiving a public assistance grant. Yet FEMA’s
     PA program provides disincentives for applicants to carry insurance. For
     example, the PA program pays for building repair costs following a first
     disaster. This effectively eliminates any incentive to purchase insurance
     before a disaster occurs. In addition, FEMA reimburses deductible
     amounts in insurance policies, regardless of the amount of the deductible.
     By reimbursing the applicant for the portion of loss not covered by
     insurance, the program creates disincentives to carry low or moderate
     deductibles. As a result, the program is not equitable to applicants who
     pay to carry insurance or choose reasonable deductibles.

     FEMA has been aware of these and other equity and disincentive
     problems for more than a decade. In the February 23, 2000, Federal
     Register (65 FR 8927), FEMA published an advance notice of proposed
     rulemaking concerning insurance requirements, procedures, and eligibility
     criteria with respect to buildings under the PA program. The notice


     FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                   Page 11
discussed the discord between the congressional intent behind the Stafford
Act and certain of the program’s policies, including the following:

   •	 Paying for building repair costs whether or not the building was
      insured at the time of the disaster. It is advantageous to building
      owners not to pay insurance premiums when they know that
      FEMA will cover the cost when a disaster occurs. FEMA reported
      that applicants were asking, “Why carry insurance on our buildings
      when we know that FEMA will be there to pick up the costs when
      the disaster hits?” Conversely, applicants who have maintained
      insurance not only are disadvantaged because they have been
      paying for insurance over time, but also because they will be
      reimbursed only for the portion of loss not covered by insurance.

   •	 Reimbursing a disaster assistance applicant for that portion of the
      loss that is not covered by insurance, including any deductibles,
      regardless of the amount of the deductible. This tends to
      encourage high deductibles for those insured. This FEMA policy
      is a disincentive to insure adequately and is not equitable to those
      who choose to insure.

   •	 Providing assistance to the extent that insurance does not.
      Applicants who have maintained insurance coverage and paid
      premiums for years can expect to receive federal assistance only to
      the extent that the costs are not covered by their insurance policy.
      They are at a disadvantage compared to applicants who do not
      have insurance and who will therefore receive all eligible repair
      costs from FEMA. Risk managers and other stakeholders raised
      this issue of inequity.

In this same Federal Register notice, FEMA identified the following other
important issues that its regulations failed to adequately address:

       •	 Defining insurance and quantifying what is acceptable to meet
          the insurance purchase requirement;

       •	 Identifying which type of insurance—replacement cost value
          or actual cost value—is needed to satisfy the insurance
          purchase requirement;

       •	 Indicating whether federal assistance will be provided for
          insured losses that fall within the deductible limits of a policy,
          and if so, up to what limits, if any;




FEMA’s Process for Tracking Public Assistance Insurance Requirements

                              Page 12
       •	 Explaining whether a local government or PNP organization
          could qualify as a self-insurer for the purposes of meeting the
          insurance purchase requirement; and

       •	 Providing policy and guidance regarding the state insurance
          commissioners’ determination under the Stafford Act that
          insurance is not reasonably available.

The Federal Register advance notice discussed possible options, solicited
ideas and comments about how to improve the program, and posed
specific questions about the approach it outlined in detail.

FEMA addressed the written comments it received in a subsequent notice
of findings published in the Federal Register (65 FR 58720) on October 2,
2000. FEMA concluded that additional study of the issues was needed.
At the time of our fieldwork, FEMA had not issued a final rule addressing
the identified deficiencies. FEMA explained that action on these issues
has not occurred because regulatory review and rulemaking involving
other programs have taken precedence. Consequently, the pertinent PA
regulations continue to present the same disincentives and equity issues,
and do not provide adequate guidance to those involved in receiving,
granting, or overseeing PA grants.

Conclusion
Even though the Stafford Act encourages state and local governments to
obtain insurance to supplement or replace government assistance, FEMA’s
PA program creates a disincentive to carry insurance and is silent on a
number of other important policy issues. FEMA has been planning to
address these issues for more than a decade, but no action has been taken.
FEMA needs to provide clear and complete guidance to those involved in
receiving, granting, and overseeing PA grants.

Recommendations
       We recommend that the Associate Administrator, Response and
       Recovery:

       Recommendation #5: Complete the rulemaking process begun in
       2000 and issue a final rule that resolves the longstanding problems
       with PA insurance regulations, including the topics of deductibles,
       self-insurance, and state insurance commissioners’ determinations
       of reasonably available insurance, among others.




FEMA’s Process for Tracking Public Assistance Insurance Requirements

                              Page 13
       Recommendation #6: Prepare and issue additional revised PA
       insurance policy and guidance to address definitions of insurance,
       deductibles, and self-insurance, and clarify issues that include,
       among other topics, deductibles, self-insurance, and state insurance
       commissioners’ impact on the PA insurance requirement.


Management Comments and OIG Analysis
       In summary, FEMA concurred with Recommendation 5, and stated
       that it is in the process of examining its PA insurance regulations
       and evaluating necessary changes. FEMA stated that, given the
       nature of the rulemaking process, it could not comment more
       specifically at this time.

       FEMA concurred with Recommendation 6, and stated that it is
       currently in the process of preparing additional insurance policy
       and guidance, in conjunction with the issuance of a final rule.
       Among the forthcoming policy and guidance are revised Fact
       Sheets for applicants and field personnel that clarify PA insurance
       issues.

       We will determine the status of recommendations 5 and 6 once we
       receive the detailed corrective action plan in FEMA’s 90-day
       letter.




FEMA’s Process for Tracking Public Assistance Insurance Requirements

                              Page 14
Appendix A
Purpose, Scope, and Methodology

                    The purpose of this audit was to determine (1) the extent to which
                    FEMA and the states monitor PA insurance requirements and
                    (2) whether facilities that were required to maintain insurance, but
                    did not, received assistance a second time.

                    We interviewed officials from FEMA headquarters and Regions
                    concerning the insurance requirements. We also performed a
                    forensic analysis on FEMA systems to determine whether there is
                    an effective and efficient approach to identify facilities that
                    received prior assistance or were required to carry insurance.

                    We reviewed OIG reports issued since FY 2009 for audits and
                    reviews that included PA insurance within their scopes of work.
                    We researched federal laws, regulations, policies, guidance, and
                    other information related to FEMA’s PA program, with an
                    emphasis on Category E and its insurance requirements.

                    We conducted this performance audit between February and May
                    2011 pursuant to the Inspector General Act of 1978, as amended,
                    and according to generally accepted government auditing
                    standards. Those standards require that we plan and perform the
                    audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based upon our
                    audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based upon our
                    audit objectives.




             FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                           Page 15
Appendix B
Management Comments to the Draft Report


                                                                                  U.S. I)cp:lrlmcnl or lIoml'I:lIul Sl'curil),
                                                                                  500 C S1n:~I . SW
                                                                                  WllshinglOn. DC 20472




         MEMO RAN DUM FOR:             Malt Jadueki
                                       Assistant Inspector General
                                       Office of InSjll!C~ General
                                       ~-~                         ,v,,-
         FROM:                         David 1. Kaufinan        /
                                       Director
                                       Office of Policy and Program Analysis

         SUBJECT:                       FEMA Response to OIG Draft Report, FEMA 's Process
                                       for Tracking Public AssiS/(IlIce IlIsllrance Requirements


         The Department of Homeland Security's Federal Emergency Management Agency (FEMA)
         appreciates the opportunit y to review and respond to the Office of Inspector General (O IG ) Draft
         Report: FEMA 's Process/or Tracking Public Assistance Insurance Requirements (O IG Project
         Number 08- 145-EMO-FEMA). FEMA is actively working to resolve the issues identi fied in the
         audit.

         It should be noted that sections of the report do not fully reflect FEMA's efforts to improve the
         efficiency of the Public Assistance (PA) insurance review process and accessing stored insurance
         infonnation. Additiona ll y, the report docs not accurately recognize the relationship between the
         time necessary for project development and completion. and reconciling project costs with
         insurance proceeds that an applicant has received or may receive.

         The main areas of findings that the report cites as problematic include: (1) improving monitoring
         and oversight by ensuring that insurance infonnation is properly recorded in FEMA's databases;
         (2) ensuring that this infonnation is accessible within FEMA's databases; and (3) publishing an
         insurance regulation that addresses specific insurance issucs. FEMA has takcn a multi-faceted
         approach to addressi ng these issues. At the Joint Field Office (JFO) and Regional levels, FEMA
         uses multiple levels of review for accuracy and quality in the project fonnulation and closeout
         processes. Further, FEMA has developed more streamlined and comprehensive databases for
         storing disaster data, including insurance infonnation. Previous disaster data will be migrated
         into the newer system, and this system will be rcgularly maintained and adjusted to incorporate
         more efficient mechanisms for housing disaster data. The date for this migration is currently
         unknown and depcndent upon availab le funding. FEMA is also evaluating its insurance
         regulations and policics, and detennining the most efficient ways to implement clarifications or



--       changes.




                            FEMA’s Process for Tracking Public Assistance Insurance Requirements


                                                             Page 16

Appendix B
Management Comments to the Draft Report



                                                                                                            2



         The OlG makes 6 recommendations in its draft report. FEMA's responses to those
         recommendations follow:

         Recommendation #1: Work with FEMA regional personnel to evaluate the process of insurance
         reviews to detennine how to complete these reviews earlier in the project fannulation process.

         FEMA Response: FEMA concurs with this recommendation.

         FEMA regularly engages with Regional personneilo evaluate ways to improve efficiency in
         program implementation. In recent disaster operations, FEMA has initiated efforts to centralize
         insurance reviews by consolidating the insurance review processes related to a multi-state
         impact. Typically, insurance review is conducted at each JFO for a disaster, and FEMA is
         currently testing a process by which insurance reviews for multiple disasters are being done at a
         centralized processing office. Following this trial at the disasters for which this is currently
         being implemented, FEMA will evaluate this experience with Regional and other field personnel
         to determine its effect on streamlining the insurance review process.

         Regarding the requirement for providing insurance information to FEMA, the grantee bears this
         responsibility pursuant to 44 CFR 206.252(c) and 44 CFR 206.253(a), and must provide this
         information to FEMA before FEMA is able to approve a project. This occurs at the beginning of
         the project formulation process.

         Regarding the requirement to obtain and maintain insurance, the applicant is required to do SO in
         the amount of the eligible damage that was incurred to the damaged facility as a result of the
         major disaster pursuant to 44 CFR 206.253(bXI), or in the amount of eligible disaster assistance
         pursuant to 44 CFR 206.252(d). Due to the nature of disaster recovery, identifying eligible
         damage, and completing projects, some flexibility in this process is required to ensure that
         Fedemlly-funded projects are completed as efficiently and responsibly as possible. At project
         close out, FEMA reconciles final project costs, including insurance requirements and
         compliance, in order to have a more final and aecurate representation of the project costs and
         requirements.

         FEMA believes this satisfies the intent of the recommendation and requests that this
         recommendation be resolved and closed.

         Recommendation #2: Implement a quality control process to ensure that all pertinent insurance
         information, including insurance and location data, is entered into the correct fields and in the
         correct format.

         FEMA Response: FEMA concurs with this recommendation.

         FEMA implements quality control at two stages of project review. At the JFO level, FEMA
         employs a Quality Assurance/Quality Control stage in the Project Worksheet (PW) review
         process to identify an y sueh errors or omissions in the PW formulation . At the Regional level,




                            FEMA’s Process for Tracking Public Assistance Insurance Requirements


                                                             Page 17

Appendix B
Management Comments to the Draft Report



                                                                                                          3

         FEMA staff responsible for project closeout performs a final review of the project, including
         compliance with insurance requirements.

         FEMA believes this satisfies the intent of the recommendation and requests that this
         recommendation be resolved and closed.

         Recommendation #3: Modify EMMIE or EDW so that FEMA can use the data stored in
         EMMIE to dctennine if an applicant previously received disaster assistance for a damaged
         facility.

         FEMA Response: FEMA concurs with this recommendation.

         Both EMMIE and EDW currently have the capability to provide this information. EMMIE
         allows searching for an applicant, and contains any information available for an applicant if they
         received or were considered for disaster assistance after July I , 2008. The data in the National
         Emergency Management Information System (NEMIS) will he migrated into EMMIE, creating a
         more robust centralized source for verification of insurance infonnation. FEMA recognizes that
         the efficiency of the system can be improved, and is working on improving the capability to
         access this infonnation. The date of migration is dependent on the availability of funding, and
         the viability of this project will be evaluated in FY2012 based on funding availability.

         FEMA believes this satisfies the intent of the recommendation and requests that this
         recommendation be resolved and closed.

         OIG Recommendation #4: Review and evaluate NEMIS and EMMIE data fields and update
         any location and insurance fields that are blank or contain erroneous infonnation.

         FEMA Response: FEMA partially concurs with this recommendation.

         FEMA agrees to update any location and insurance fields that are blank or contain erroneous
         infonnation as they become known in the process going forward in future disasters. To do so
         retroactively would be an infeasible cost and personnel burden. EMMIE fields are quality
         reviewed at two stages 10 correct such errors. This combined with an applicant's duty to provide
         insurance infonnation make retroactive application to these databases unnecessary.

         FEMA believes this satisfies the intent of the recommendation and requests that this
         recommendation be resolved and closed.

         OIG Recommendation #S: Complete the rulemaking process begun in 2000 and issue a final
         rule that resolves Ihe longstanding problems with Public Assistance insurance regulations,
         including the topics of deductibles, self-insurance, and slate insurance commissioners' .
         determination of reasonably available insurance, among others.

         FEMA Response: FEMA concurs with this recommendation.




                           FEMA’s Process for Tracking Public Assistance Insurance Requirements


                                                            Page 18

Appendix B
Management Comments to the Draft Report



                                                                                                           4

         FEMA is in the process of examining its PA insurance regulations and evaluating necessary
         changes. Given the nature of the rulemaking process, FEMA cannot comment more specifically
         at this time.

         FEMA believes this satisfies the intent of the recommendation and requests that this
         recommendation be resolved and closed.

         Recommendation #6: Prepare and issue additional revised Public Assistance insurance policy
         and guidance to address definitions of insurance, deductibles, and self-insurance, and clarify
         issues that include, among other topics, deductibles, self-insurance, and state insurance
         commissioners' impact on the PA insurance requirement.

         FEMA Response: FEMA concurs with this recommendation.

         FEMA is currently in the process of preparing additional insurance policy and guidance, in
         conjunction with the issuance of a final insurance rule. Among the forthcoming policy and
         guidance, are revised Fact Sheets for applicants and field persoJUlel that clarify the above PA
         insurance issues.

         FEMA believes this satisfies the intent of the recommendation and requests that this
         recommendation be resolved and closed.

         Again, we thank you for the opportunity to review and provide our comments to your
         recommendations contained in your draft report. Should you have further questions regarding
         our response, please do not hesitate to call FEMA's Chief Audit Liaison, Brad Shefka, at 202·
         646·1308.




                           FEMA’s Process for Tracking Public Assistance Insurance Requirements


                                                            Page 19

Appendix C
Previous Inspector General Reports on Public Assistance Insurance

DHS Office of Inspector General

       DHS OIG PA Insurance Reports by Finding and Report Number
                          Fiscal                                                                Report
       Finding                                             Report Title
                          Year                                                                  Number
Duplicate Benefits        2009      Hurricanes Ivan, Dennis, and Katrina Activities for         DA-09-03
                                    Baldwin County, Alabama
                          2009      Hurricane Katrina Activities for the Catholic Diocese of    DA-09-08
                                    Biloxi, Mississippi
                          2009      Seminole Tribe of Florida - Activities for 2004 and 2005    DA-09-16
                                    Florida Hurricanes
                          2009      Hurricane Wilma Activities for Town of Davie, Florida       DA-09-17
                          2009      Hurricane Georges Activities for Puerto Rico Electric and   DA-09-21
                                    Power Authority
                          2010      City of Memphis, Tennessee                                  DA-10-02
                          2010      Ernest N. Morial Exhibition Hall Authority                  DD-10-02
                          2010      City of Hialeah, Florida                                    DA-10-12
                          2010      Hancock County School District, Mississippi                 DA-10-14
                          2011      Beauvoir - Jefferson Davis Home and Presidential Library    DA-11-10
Incomplete Insurance      2010      Town of Vinton, Louisiana                                   DD-10-06
Review                    2011      City of West Palm Beach, Florida                            DA-11-01
                          2011      County of Ventura, California                               DS-11-03
                          2011      Chennault International Airport Authority, Lake Charles,    DD-11-07
                                    Louisiana
                          2011      City of Port Arthur, Texas                                  DD-11-10
                          2011      Roman Catholic Church of the Archdiocese of New Orleans     DD-11-11
                                    Funding of Permanent Work
Insufficient Insurance    2010      Orleans Levee District                                      DD-10-12
Coverage                  2011      Lafon Nursing Facility of the Holy Family                   DD-11-02
Applicant Did Not         2011      Broward Sheriff’s Office - Disaster Activities Related to   DA-11-08
File Insurance Claim                Hurricane Wilma




FEMA Office of Inspector General
     Compliance with Public Assistance Program’s Insurance Purchase Requirements
     (I-01-01), January 2001




              FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                            Page 20
Appendix D
Major Contributors to this Report

                     Kaye McTighe, Director
                     John McPhail, Supervisory Program Analyst
                     John Meenan, Auditor in Charge
                     Julie Wong, Auditor
                     Kimberly Letnaunchyn, Program Analyst
                     Joshua Wilshere, Forensics Specialist




              FEMA’s Process for Tracking Public Assistance Insurance Requirements

                                            Page 21
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Chief of Staff
                      Associate Administrator, Response and Recovery
                      Chief Financial Officer
                      FEMA Audit Liaison, (Project Code –08-145-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              FEMA’s Process for Tracking Public Assistance Insurance Requirements


                                            Page 22

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
